No. 20A136 & 20A137

In the Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH AND BISHOP ARTHUR HODGES III,
Applicants,

v.

GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA, ET AL.,
Respondents.
HARVEST ROCK CHURCH, INC., ET AL.,
Applicants,

v.

GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA,
Respondents.
To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit

AMENDED CERTIFICATE OF SERVICE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the amicus
on the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Applicants, for (1) Leave to File the Brief
and (2) to Do So without Ten Days’ Notice, certify that on the 29th day of January,
2021, I caused a copy of the motion and amicus brief to be served via U.S. Mail and
electronically on the following:
Matthew D. Staver
Counsel of Record
P.O. Box 540774
Orlando, FL 32854
court@LC.org
Counsel for Applicants Harvest Rock
Church, et al.

Charles S. LiMandri
Counsel of Record
LiMandri & Jonna LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
cslimandri@limandri.com
Counsel for Applicants South Bay
United Pentecostal Church, et al.

Seth Goldstein
Deputy Attorney General
Todd Grabarsky
Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
Seth.Goldstein@doj.ca.gov
Todd.Grabarsky@doj.ca.gov
Counsel for Respondents Gavin
Newsom, Xavier Becerra, and Sandra
Shewry

Jeffrey Patrick Michalowski
Counsel of Record
Office of County Counsel
1600 Pacific Highway, Suite 355
San Diego, CA 92101
jeffrey.michalowski@sdcounty.ca.gov
Counsel for Respondents Wilma J.
Wooten, Helen Robbins-Meter, and
William D. Gore

I further certify that all parties required to be served have been served.

Eric Rassbach

